No. ________________________________

In the Supreme Court of the United States
__________

RICHARD DUCOTE, ESQ., VICTORIA MCINTYRE, ESQ., & S.S.,
Petitioners,
v.
S.B.,
__________

Respondent.

On Petition for a Writ of Certiorari to the
Supreme Court of Pennsylvania
__________
APPENDIX
__________
RICHARD L. DUCOTE, ESQ.
Counsel of Record & In Proper Person
VICTORIA E. MCINTYRE, ESQ.
In Proper Person &
Counsel for Petitioners
318 E. Boston Street, Floor 2
Covington, Louisiana 70433
rducote@ducotelaw.com
(985) 898-2755

1a

[J-29-2020]
IN THE SUPREME COURT OF PENNSYLVANIA
WESTERN DISTRICT
SAYLOR, C.J., BAER, TODD, DONOHUE, DOUGHERTY, WECHT, MUNDY, JJ.

S.B.
v.
S.S.
APPEAL OF: S.S., RICHARD DUCOTE,
ESQUIRE, AND VICTORIA MCINTYRE,
ESQUIRE

:
:
:
:
:
:
:
:
:
:
:
:

No. 39 WAP 2019
Appeal from the Order of the
Superior Court entered December
24, 2018 at No. 753 WDA 2018,
affirming the Order of the Court of
Common Pleas of Allegheny County
entered April 27, 2018 at No. FD-15008183-10.
ARGUED: May 27, 2020

OPINION

JUSTICE BAER

DECIDED: DECEMBER 22, 2020

In this appeal, we examine an order entered in a custody matter that places
restrictions on the speech of a parent and her counsel to determine whether the order
violates the right to free speech as guaranteed by the First Amendment to the United
States Constitution and Article I, Section 7 of the Pennsylvania Constitution. Finding that
the order restricted only the manner of speech and not the content, the Superior Court
upheld the order, concluding that the restriction of speech furthered the important
governmental interest of protecting the psychological well-being and the privacy of the
child at the center of the custody dispute. For the reasons set forth herein, we affirm the
judgment of the Superior Court.

2a

I. Background
At the heart of this case is a protracted and contentious battle between S.B.

born in 2006.1 In 2007, Father adopted Child with his first wife, who died in 2008, when
Child was two years old. For the next four years, Father raised Child on his own, with
continued support from his first

extended family.

In September of 2012, Father married Mother, who adopted Child in 2013. The
marital union was short-lived, as later that year, Mother and Father separated and entered
into a custody agreement.2 In June of 2015, Father filed an action seeking custody of
Child, and Mother later counterclaimed for primary custody. Following a hearing on
October 9, 2015, an interim custody order was entered, which expanded
time. Five days later, Mother filed a protection from abuse

petition on behalf of

herself and Child, alleging that Father had sexually abused Child. Accordingly, the trial
court entered a temporary PFA order

.

The trial court subsequently conducted a five-day trial to address the claims set
forth in the PFA petition. Discrediting the allegations of sexual abuse, the trial court
dismissed

PFA petition, vacated the temporary PFA order, and granted Father

supervised partial custody. On February 2, 2016, a few weeks after the trial court
scheduled a custody trial for later that year, Mother filed a second PFA petition, again
alleging

Child. The trial court subsequently denied the second

PFA petition.

1

this appeal.
2

The precise details of the custody agreement are not relevant to this appeal.

[J-29-2020] - 2

3a

On May 20, 2016, the trial court commenced the custody trial, which spanned over
twenty-three days, and ultimately concluded on November 18, 2016. At trial, the parties
presented twenty-four witnesses, including Mother, Father, Child,

Guardian

ad litem, and the trial court also admitted nearly two hundred exhibits. On December 12,
2016, the trial court entered an order, which the court amended on December 14, 2016,
granting Father sole legal and physical custody of Child.3 The orders also directed Father
and Child to participate in the Family Bridges Workshop for Troubled and Alienated
Parent-Child Relationships, and ordered Mother not to have any contact or partial custody
with Child for a period of ninety days.
In an opinion dated December 22, 2016, the trial court explained its ruling and set
forth detailed findings of fact. Relevant here, the trial court concluded that Father did not
sexually abuse Child.

The court reached this conclusion after evaluating

testimony in open court; reviewing videos of forensic interviews in which Child made
detailed allegations of purported sexual abuse;
proceeding, which had been introduced into the record of the custody trial; listening to the
testimony of experts who evaluated Father; and considering the testimony of witnesses
who had observed the nature of the relationships between both Father and Child and
Mother and Child, before and after the allegations were made. The trial court explained
that the de

in-court descriptions of the alleged sexual abuse were not

credible and that the timing of the allegations were suspect, i.e., they arose shortly after

To be precise, the trial court did not believe that Child deliberately lied. Rather,
the court reasoned that Child may have believed that abuse occurred years earlier, but
3

At the time the trial court entered its final custody order, it had been almost one year
since Father was able to have contact with Child. See Trial Court Opinion, 1/30/2017, at
6.

[J-29-2020] - 3

4a

testimony contained statements that were

[were]
, 12/22/2016, at 7. The trial

court further relied upon expert testimony, establishing that Father is a low risk to
perpetrate

Id. at 8. Finally, the trial

court concluded that Mother had isolated Child from everything he knew before she
adopted him, and alienated Child from Father, as well as

Id. at

53, 55.
The
opinion filed on October 20, 2017, hold
findings that Mother alienated Child from Father, and that Father did not sexually abuse
Child. Mother filed a petition for allowance of appeal in this Court, which we denied on
February 22, 2018. S.B. v. S.S., 182 A.3d 430 (Pa. 2018).
Meanwhile, on February 7, 2018, a
allocatur in the custody matter,
conference on the online video-sharing platform, YOUTube, expressing
in the custody matter. Mother has
described the press conference as a means to draw attention to child sexual abuse
victims everywhere and the role of the courts in granting custody of children to their
According to Mother,
parents from various organizations around the country gathered at the press conference
to shed light upon and to educate the public about the ways that family courts nationwide
have been failing child abuse victims, as well as to highlight pending legislation in the
United States House of Representatives and the Pennsylvania legislature. Id. at 5-6.
While Child was not named during the press conference, Attorney Ducote
identified Mother by name and, notably, included a link providing access to a reproduction

[J-29-2020] - 4

5a

of

-court testimony and forensic interview, during which Child sets forth detailed

allegations of

sexual abuse, which the trial court had deemed unfounded.

replaced by the first letter of his first name. However, Child obviously could have been
identified by virtue of the disclosure o
Further, on February 28, 2018, an article about the custody matter appeared in the
Pittsburgh City Paper, quoting the identical intimate and detailed account of
abuse allegations that were

. See Rebecca

Addison,
the abusers, PITTSBURGH CITY PAPER (February 28, 2018). Although the article did not
state the name of Child, Mother, or Father, it referenced C

, the first name of

best friend, and the fact that Attorney Ducote had represented the mother in the
custody matter. The article asserted that the Pennsylvania Legislature was considering
a bill to require additional training for court personnel in child custody cases to prevent
courts from granting custody of children to fathers who abused them.
On April 19, 2018, Father filed a motion for sanctions and other relief in the trial
court, seeking an order prohibiting Mother and her counsel (Richard Ducote, Esquire, and
Victoria McIntyre, Esquire) from speaking publically about the case in any forum, directing
them to remove any information about the case that they had posted publically or
disseminated, and imposing monetary sanctions.

because there had been no court orders preventing the parties from speaking publically
about the custody matter at that time, and the record had not been sealed.4 The trial
court
4

, stating:

The trial court record in this case remains unsealed.

[J-29-2020] - 5

6a

It is hereby ORDERED that [Mother]; Richard Ducote, Esquire; and
Victoria McIntyre, Esquire shall NOT speak publicly or communicate about
this case including, but not limited to, print and broadcast media, on-line or
web-based communications, or inviting the public to view existing on-line or
web-based publications. The following is also ORDERED.
1. [Mother]; Richard Ducote, Esquire; and Victoria McIntyre shall
NOT direct or encourage third parties to speak publicly or communicate
about this case including, but not limited to, print and broadcast media, online or web-based communications, or inviting the public to view existing online or web-based publications.
2. [Mother]; Richard Ducote, Esquire; and Virginia McIntyre may
provide public testimony in the State House and/or Senate and in the United
States Congress and Senate about parent alienation, sexual abuse of
children in general or as it relates to this case. However, in providing such
testimony, they shall NOT disclose any information that would identify or
tend to identify the Child. [Mother] shall NOT publically state her name, the
name of the Child or
name. Attorney Ducote and Attorney
McIntyre shall NOT publically refer to [Mother], the Child, or [Father] by
name or in any manner that would tend to identify the aforementioned
parties.
3. [Mother] and Counsel shall remove information about this case,
which has been publically posted by [Mother] or Counsel, including but not
limited to, the press release, the press conference on the YouTube site, the
Drop Box and its contents, and other online information accessible to the
public, within twenty-four (24) hours. [Mother] and Counsel shall
download or place the aforementioned information onto a thumb drive,
which shall be filed with this court.
The Oral Motion to Stay This Order of Court, made [on] behalf of
[Mother] is DENIED.
This Order does not prohibit any party or counsel from publicly
speaking or expressing an opinion about the Judge, including disclosing the
entry of this Order of Court, after the information has been removed as set
forth, above. However, such expression shall NOT contain the name of the
Child or other information, which would tend to identify the Child.
Trial Court Order, 4/27/18, at 1-2

(emphasis in original).

[J-29-2020] - 6

7a

On the same day, the trial court issued extensive findings of fact in support of its
order. Therein, the trial court found that because Child attended a small private school
where both faculty, students, and parents were likely to know each other, the release of
as the young boy who provided the graphic
testimony about the alleged sexual abuse. Findings of Fact, 4/27/2018, at ¶ ¶12-14. The

clearly not in his best interest as there is clearly the potential for curious parents, teachers
and students in his school to read this information, which could subject him to undue
Id. at 15.
While the trial court indicated a willingness to support the transparency of court

thoughtless, vexatious, and vengeful speech can cause a young child caught in the
middle of a high-

Id. at 17. Under the circumstances presented,

scorn, outweighs the rights of Mother and her attorney to engage in thoughtless, toxic,
5

Id. at 18. Mother and her counsel

In their statement of matters complained of on appeal, Appellants contended that
the trial court abused its discretion by entering the gag order, which they alleged
constituted both a content-based speech restriction and a prior restraint on the content of
speech that prohibited them from speaking publicly or communicating about the case in
violation of their right to free speech under the United States and Pennsylvania

5

The trial court additionally found that the actions
Id.

[J-29-2020] - 7

8a

Constitutions.6
gag order as content-based. Trial Court Opinion, 7/6/2018, at 3. Finding no case law
directly on point, the trial court examined jurisprudence relating to the sealing of open
records and the closure of court proceedings. The court acknowledged that while courts
are presumptively open, the Juvenile Act recognizes the need to shield children from
harmful public scrutiny in delinquency and dependency matters. Id., at 3-4 (citing 42

under [

) and 42 Pa.C.S. § 6308 (providing for limited

public access to records relating to juvenile proceedings)).
The trial court further cited divorce hearings as another type of proceeding which
courts may close to protect rights of parties upon a showing of good cause. Id. at 4 (citing
Pa.R.C.P. 223(4) (permitting the court to enforce rules and orders to exclude the public
or persons not interested in the proceedings when the court deems such exclusion to be
in the interest of the public good, order or morals)).
In d
tended to identify Child; whether their conduct
and speech was harmful to Child; and whether
ridicule and scorn outweighed

right to be free from undue scrutiny,
right to

misleading, and vengeful discourse

engage in thoughtless, toxic,
Id. Based on its specific findings

6

religion, or prohibiting the free exercise thereof; or abridging the freedom of speech, or of
the press; or the right of the people peaceably to assemble, and to petition the
U.S. CONST. amend. I.
Article I, Section 7 of the Pennsy
opinions is one of the invaluable rights of man, and every citizen may freely speak, write
and print on any subj
PA. CONST.
art. I, §7.

[J-29-2020] - 8

9a

of fact of April 27, 2018, set forth supra, the trial court found good cause to restrict
speech.
The Superior Court affirmed, finding that the gag order was constitutionally
permissible. S.B. v. S.S., 201 A.3d 774 (Pa. Super. 2018). Initially, the court recognized
that

claim implicated the fundamental right to the free exercise of speech as

guaranteed by the First Amendment to the United States Constitution and Article I,
Section 7 of the Pennsylvania Constitution.

The court observed that when the

government restricts expression due to the content of the message being conveyed, the
restrictions are permitted only if they pass the strict scrutiny standard, which requires the
government to demonstrate that the restrictions are narrowly tailored to serve a
compelling state interest. S.B. v. S.S., 201 A.3d at 781 (citing Republican Party of
Minnesota v. White, 536 U.S. 765, 775 (2002)).
The Superior Court reasoned, however, that where the government applies a
content-neutral regulation to expressive conduct, the intermediate scrutiny standard set
forth in

, 391 U.S. 367 (1968), applies, which justifies the regulation if: (1)

promulgation of the regulation is within the constitutional power of the government; (2)
the regulation furthers an important or substantial governmental interest; (3) the
governmental interest is unrelated to the suppression of free expression; and (4) the
incidental restriction on First Amendment freedoms is no greater than essential to the
furtherance of that interest.

S.B. v. S.S., 201 A.3d at 781 (citing

377). The Superior Court observed that

, 391 U.S. at

[al] inquiry in determining content

neutrality, in speech cases generally and in time, place, or manner cases in particular, is
whether the government has adopted a regulation of speech because of disagreement
with the message it conveys.

Id. (citing Ward v. Rock Against Racism, 491 U.S. 781,

791 (1989)).

[J-29-2020] - 9

10a

identify or tend to identify Child, the Superior Court found that the gag order was contentneutral. Id. at 782. The court reasoned that the gag order is not concerned with the
content

target of the speech,
Id.

(emphasis in original). The court further reasoned
when linked to a free exercise clause claim, may be subject to limitation . . . if it appears
that parental decisions will jeopardize the health or safety of the child, or have a potential
for significant social burdens.

Id. (citing Shepp v. Shepp, 906 A.2d 1165, 1173 (Pa.

2006) (internal citation omitted)).7
Reiterating

the allegations of sexual abuse by Father

were unsubstantiated and that Child suffered

e between

concluded that the perpetration and magnification of that
strife in the media . . . . would exacerbate the harm to Child and constitute an egregious
Id.

ew, the aim of the gag order

was to promote the best interests of Child by protecting his privacy and concealing his
identity, while permitting ample alternative channels for Mother and her attorneys to

7

As noted infra, Shepp involved a constitutional challenge to a custody order prohibiting
a father of Mormon faith from teaching his minor child about polygamy, which is a crime
in Pennsylvania. The case highlighted the tension arising between the First Amendment
23 Pa.C.S. § 5301 (repealed), to assure a reasonable and continuing contact of the child
with both parents after a separation or dissolution of the marriage and a sharing of the
rights and responsibilities of child-rearing by both parents when in the best interest of the
child. This Court held that a court may prohibit a parent from advocating religious beliefs,
for significant social burdens

Shepp, 906 A.2d at 1174.

[J-29-2020] - 10

11a

provide public testimony relating to the broader issues implicated by the custody matter.
Id.

were unconstitutionally vague or overly broad, finding instead that the order i
Id. at 783.
would read the order to forbid exactly what Mother wanted to do: take her case to the
Id. The Superior Court

limited restriction made clear

that Mother and her counsel may not discuss anything that will harm Child.

Id.

Accordingly, the Superior Court stated, Viewing the gag order in light of the abovereferenced intermediate test applicable to content-neutral, governmental restrictions on
speech, we determine that the order is constitutionally permissible. Id. The court further
concluded that the order i

-tailored to advance a substantial government

interest at stake, i.e., safeguarding children from various kinds of physical and emotional
harm and promoting their well-being, while remaining open to other channels of
8

Id. at 784.

We granted allocatur in this case to address the following issue:
In a child custody case, did the Pennsylvania Superior Court err in
Fourteenth Amendments to the United States Constitution and Article I, § 7
of the Pennsylvania Constitution when the order precluded the parent and
attorneys from speaking publicly about the case in a manner that would
identify the child involved?
S.B. v. S.S., 217 A.3d 806 (Pa. 2019).

8

The Superior Court further reminded Attorney Ducote and Attorney MacIntyre of their
ethical obligations under the Pennsylvania Rules of Professional Conduct. Id. at n.3.

[J-29-2020] - 11

12a

Appellants contend that the

gag order violates

their constitutional rights to free speech as the order constitutes
that prohibits them indefinitely from speaking about the case in any manner,
while imposing no restrictions on

. Brief for Appellants at 9. Categorizing

the gag order as both a content-based restriction and a prior restraint on speech,
Appellants posit that the heightened constitutional standard of strict scrutiny must apply.
They maintain that because there is no compelling state interest supporting the imposition
of an indefinite and total restraint upon their speech, the gag order cannot stand.9
Relating to the claim that the gag order constitutes a content-based restriction on
speech, Appellants

-based restrictions

require the government to satisfy the strict scrutiny standard to pass constitutional muster.
Brief for Appellant at 10 (citing Turner Broad. Sys. Inc. v. F.C.C., 512 U.S. 622, 642 (1994)

scrutiny to regulations that suppress, disadvantage, or impose differential burdens upon
They

guage

constitutes a total prohibition against speaking publicly about the custody case in any
manner, not only in a manner that identifies Child, as held by the Superior Court.
In support of this contention, Appellants rely exclusively upon the following
sentence in the order:
and Victoria McIntyre, Esquire shall NOT speak publicly or communicate about this case
including, but not limited to, print and broadcast media, on-line or web-based
communications, or inviting the public to view existing on-line or web-based publications.
Trial Court Order, 4/27/2018, at 1. Ignoring the remaining text of the gag order, Appellants
9

Appellants make no distinctions in their arguments relating to the restriction of speech
of a parent in a custody proceeding, as opposed to restriction of the speech of an attorney
representing a parent in that matter.

[J-29-2020] - 12

13a

view the speech restriction as constituting a total ban on speech of a particular topic, i.e.,
, they argue, renders the regulation of speech contentbased.
Concerning the prior restraint claim, Appellants assert that the gag order falls
under this category as it restricts their speech prior to them uttering it, thereby rendering
the gag order presumptively unconstitutional under both our state and federal charters.
Recognizing that prior restraints on speech are not unconstitutional per se, Appellants

presumption against its constitutional validity, which cannot be overcome here. Brief for
Appellants at 10 (citing Nebraska Press Association v. Stuart, 427 U.S. 539, 559 (1976)).
Appellants

fails to discuss their claim

that the gag order constitutes a prior restraint on the content of their speech. Brief for
Appellant at 17.
Rather than setting forth a compelling state interest to support a prior restraint on
speech or a content-based restriction on speech, Appellants contend that the lower courts

legal significance. Brief for Appellants at 18. They acknowledge that this Court in Shepp,
supra, observed that the Commonwealth may, in limited circumstances, infringe upon a
. Appellants submit,
however, that a restriction on speech cannot occur
speech is causing or will cause harm to a

Brief for Appellant at 19. They

contend that the lower courts cited no evidence that the restricted future speech would
result in real harm or danger to Child. Appellants posit that a finding of harm
welfare here, based upon a generalized theory that children may be harmed by the

[J-29-2020] - 13

14a

disclosure of negative personal information during custody litigation, would abrogate
parents First Amendment protections in all custody proceedings. Further, they assert
that

interests were truly compromised by public speech about the custody

matter, the gag order would have prohibited speech by all parties with knowledge of the
case, not only the speech of Mother and her counsel.10
Discounting that harm would befall Child and similar children in custody matters if
public speech were not, in certain circumstances, restrained, Appellants submit that
federal courts have chosen
the regulated speech affected the fairness of the trial or threatened the administration of
justice by influencing a jury, and not in child custody proceedings, which have no jury to
taint. Brief for Appellants at 20-21. Similarly, they argue, the t
privacy interests at risk in delinquency and dependency proceedings have little,
if anything, to contribute to the First Amendment issues at play here. Appellants further
assert, with little elaboration, that other state courts which have addressed gag orders in
custody proceedings have found them to be unconstitutional. Id. at 21 n.54.
Appellants additionally argue that the gag order

vague and overly

broad, as it is difficult to ascertain what speech is precluded and the prohibitions restrict
more speech than is necessary under the circumstances. In support of their argument,
Appellants cite language in the gag order
to speak publicly or communicate about this case, as well as language precluding them
.
10

speech, they forward no claim that this fact alone invalidates the order. The essence of
her counsel, as they were the only trial participants taking the case to the media to the
detriment of Child. This case does not involve a scenario where there was a danger of
both parents disclosing intimate facts that would harm the psychological well-being and
privacy interests of the child and the court restrained only the speech of one parent.

[J-29-2020] - 14

15a

In their view, there is no clear standard by which to judge whether one

violate

these vague mandates. Most egregiously, Appellants submit, the gag order prohibits
them from publicly stating

name when testifying before legislative bodies about

parental alienation or sexual abuse of children in general, or as it relates to this case.
They further assert that because there is no temporal limit on the speech restriction, the
gag order silences their

well beyond

In addition to their First Amendment challenge, Appellants also claim that the gag
order violates Article I, Section 7, of the Pennsylvania Constitution because the
charter affords broader protection than the First Amendment. Brief for
Appellants at 11-12 (citing

, 812 A.2d 591, 603 (Pa. 2002)

(explaining that Article I, Section 7 of the Pennsylvania Constitution provides additional

free communication of
thoughts and opinions,
).
Finally, Appellants contend that there are significant public policy considerations
reversal of the gag order. See Brief for Appellants at 35-36, 37

problem of family courts failing to protect sexually abused children in custody cases, but
also from discussing the details of this case in light of other relevant important discourse;
that others in a comparable
position should err on the side of silence when considering speaking out, for fear of similar
).

[J-29-2020] - 15

16a

In response, Father contends that the Superior Court did not err in affirming the
carefully-tailored restriction of
speech was harmful and dangerous to Child

speech, after concluding that the
psychological and emotional well-being.

Initially, he highlights the factual findings made by the trial court in both the underlying
custody matter, which are not at issue herein, and in the present gag order litigation,
which he contends are supported by the record. Father reminds this Court that the trial
was based upon the finding that it was not Father, but Mother
who posed a danger to Child.
Father

allegations that he sexually abused Child arose

soon after an order was entered increasing his custody time with Child, and that Mother
subsequently

. Brief for Appellee

at 2 n.3 (citing S.B. v. S.S., 74 WDA 2017 (Pa. Super. 2017), at 11-12 (stating,

core

of this custody case is not allegations of sexual abuse; it is isolation and alienation.
. . . is not lost on this Court.
Our review of the record indicates that Mother has systematically engineered an isolation
)). He further reiterates that Appellants placed
the story with the news media by holding an online press conference that provided access
to select graphic and misleading materials, such as
interview regarding the allegations of sexual abuse by Father, which had been deemed
unfounded.11
11

ation thereof, were highly
[and] were delivered only after many months of isolation by Mother from all who loved
privately to Mother that he could not remember the abuse Mother insisted he had

[J-29-2020] - 16

17a

As to the pertinent legal analysis, Father adopts the reasoning of the lower courts
in this matter. While not disputing

primary contention regarding the deference

afforded to the constitutionally protected right to free speech, Father takes the position
that no rights, not even fundamental ones, are unconditional. Contrary to
contention that their right to free speech may not be limited at all under the circumstances
presented, Father posits that the trial court acted within constitutional boundaries when
imposing the narrow restrictions on

speech based upon the detailed findings

of fact establishing that the challenged speech in the custody matter would expose Child
to undue ridicule, scorn, and scrutiny.
the speech restriction focuses upon Child as the target of the
speech, as opposed to the content of

. Thus, he concludes, the

restriction on speech need not be subject to the highest constitutional standard of strict
scrutiny and, instead, is constitutional as it furthers the important governmental interest
of safeguarding the well-being and privacy of Child, who is caught in the midst of a
contentious custody proceeding.
Finally, Father submits that the gag order

vague or overly broad.

He maintains that the order clearly provides that Appellants can speak publicly about the
issues of parental alienation or child sexual abuse, either generally or as those topics
relate to this case specifically, but may not do so in a manner that identifies Child.
Similarly, Father contends, the gag order permits Appellants to express opinions about
the trial court judge and the entry of the custody order in this case, so long as those
expressions do not disclose Child

. Thus, he concludes, a person of ordinary

intelligence would know that the gag order restrains only speech that identifies Child and

emember it if he continued
Id.

[J-29-2020] - 17

18a

subjects Child to psychological harm. Accordingly, Father urges this Court to affirm the
judgment that up
III. Analysis
As Appellants challenge the gag order on the ground that it violates the right to
free speech as guaranteed by the state and federal constitutions, their appeal presents
questions of law for which our standard of review is de novo and our scope of review is
plenary. Commonwealth v. Davis, 220 A.3d 534, 540 (Pa. 2019). In conducting our
inquiry, we acknowledge that in cases raising First Amendment issues . . . an appellate
make an independent examination of the whole record in order
to make sure that the judgment does not constitute a forbidden intrusion on the field of
free expression.

Gentile v. State Bar of Nevada, 501 U.S. 1030, 1038 (1991) (internal

citation omitted).
clearly implicates the fundamental right to the free exercise of
speech as guaranteed by the First Amendment to the United States Constitution and
Article I, Section 7 of the Pennsylvania Constitution.

We first examine Appellants

challenge under the United States Constitution. Ratified in 1791, the First Amendment
provides, in relevant part,
U.S. CONST. AMEND. I;
2346 (2020). The First Amendment

, 140 S.Ct. 2335,
-speech clause is made applicable to the states

through the Fourteenth Amendment. Manhattan Cmty. Access Corp. v. Halleck, 139 S.
Ct. 1921, 1928 (2019).
It is beyond cavil that our political and cultural lives rest upon the principle,
that each person should decide for him or herself
the ideas and beliefs deserving of expression, consideration, and adherence

Turner

Broad. Sys. v. FCC, 512 U.S. at 641. Accordingly, the First Amendment precludes the

[J-29-2020] - 18

19a

government from restricting expression due to its message, ideas, subject matter, or
content. Police Dept. of Chicago v. Mosely, 408 U.S. 92, 95 (1972).
right to free speech, however, while fundamental, is not absolute.

, 427

American Communications Assn. v. Douds, 339 U.S. 382, 394 (1950).
Instead,

in light of the special characteristics
Tinker v. Des Moines Indep. Community Sch. Dist., 393

U.S. 503, 506 (1969).
Keeping in mind these general principles, we first consider the nature of the

A. Nature of Speech Restriction
It is well-established that content-based restrictions on speech are presumptively
unconstitutional and are subject to the strict scrutiny standard, which requires the
government to prove that the restrictions are narrowly tailored to serve a compelling state
interest. Reed v. Town of Gilbert
speech is content based if a law applies to a particular speech because of the topic
Id.
Determining whether a particular restriction on speech is content based or content
neutral is not always a simple endeavor. Turner Broad. Sys., 512 U.S. at 642. A
restriction is content based if either the face of the regulation or the purpose of the
regulation is based upon the message the speaker is conveying. Reed, 576 U.S. at 16364. See e.g., Barr, supra (holding that a federal statute permitting only those robocalls
that relate to the collection of government debt is clearly a content-based restriction on
speech because the law favors speech made for collecting government debt over political
and other speech).

[J-29-2020] - 19

20a

to an intermediate level of scrutiny because in most cases they pose a less substantial
risk of excisin

Turner Broad. Sys.,

512 U.S. at 642 (internal citation omitted). A content-neutral regulation of speech passes
constitutional muster if it satisfies the following four-part standard set forth by the High
Court in United States v.

, supra: (1) the regulation was promulgated within the

constitutional power of government; (2) the regulation furthers an important or substantial
governmental interest; (3) the government interest is unrelated to the suppression of free
expression; and (4) the incidental restriction on alleged First Amendment freedoms is no
greater than is essential to the furtherance of that interest.

, 391

U.S. at 377.
So long as the regulation of speech is not a means, subtle or otherwise, of
exercising content preference, it is not presumed invalid. See Turner Broad. Sys., supra
(deeming the challenged statute content neutral because the face of the statute
distinguishes between speakers in the television programming market based only on the
manner in which the programmers transmit their messages to viewers, not the content of
the messages they carry, and the purpose for which the statute was enacted is also
unrelated to content).
Restrictions on the time, place and manner of expression, whether oral, written or
symbolized by conduct, are a form of a content-neutral regulation of speech. Clark v.
Community for Creative Non-Violence, 468 U.S. 288, 293 (1984). These restrictions may
make it more difficult for an individual to engage in a desired speech-related activity by
targeting, inter alia, the means of speech or the method of communication, but they do
not target the content of the message ultimately conveyed. Time, place, and manner
restrictions are valid, provided that they: (1) are justified without reference to the content

[J-29-2020] - 20

21a

of the regulated speech; (2) are narrowly tailored to serve a significant governmental
interest unrelated to speech;12 and (3) leave open ample alternative channels for
communication of the information. Id.
al inquiry in determining content
neutrality, in speech cases generally and in time, place, or manner cases in particular, is
whether the government has adopted a regulation of speech because of disagreement
Ward, 491 U.S. at 791 (internal citation omitted). The
of the speech restriction is the controlling consideration and, if the
purpose is unrelated to the expression of content, the restriction is deemed neutral, even
though the speech restriction may have an incidental effect on some speakers or
messages, but not others. Id.
While the precise text of the two constitutional standards differ (i.e., the
standard employed to determine whether a regulation of speech is content neutral and
the specific standard applicable to time, place, and manner restrictions on speech), the
High Court has clarified that the
Community for Creative NonViolence, 468 U.S. at 298.
Viewing the gag order in accord with this federal jurisprudence, we conclude that,
when read in its entirety, the order constitutes a content-neutral restriction on the manner
by which Appellants may convey their public speech, which was imposed for the exclusive

12

The United States Supreme Court has

legitimate, content-neutral interests but that it need not be the least restrictive or least
Ward v. Rock Against Racism, 491 U.S. at 798.

[J-29-2020] - 21

22a

purpose of protecting the psychological well-being and privacy of Child, and was not
intended to, and, indeed, does not restrict

message.13

In this regard, we respectfully reject
constitutes a total ban on all speech relating to the topic of
as we find such contention unsupported by the

,

plain text and its clearly articulated

purpose. To illustrate, the gag order begins with language providing that Appellants shall
not speak publicly or communicate about this case

Trial Court Order, 4/27/18, at 1. It

further provides for two additional restrictions: (1) providing that Appellants shall not
ncourage third parties to speak publicly or communicate about this case and
(2) requiring Appellants to remove within twenty-four hours information publicly posted
about this case. Id. at 1-2.
Germane to this appeal, the gag order includes additional provisions expressly
permitting public

if conveyed in a particular

manner. The gag order states that Appellants may provide public testimony in the State
House and/or Senate and in the United States Congress and Senate about parent
alienation, sexual abuse of children in general or as it relates to this case, so long as
their speech is not conveyed in a manner that would identify Child, such as publicly stating
, or publicly referring to either parent or Child. Id. Finally, the gag order

13

upon that portion of the gag order
consideration of the gag order in its entirety. As demonstrated throughout, the language
of the gag order is nuanced uniquely and tailored to circumvent a specific manner of
public speech that was found, based upon an extensive factual record, to cause imminent
harm to Child, and does not discriminate based upon the content of the message
conveyed. For this reason, the out-of-state cases cited by the dissenting opinion are
wholly distinguishable as they involve gag orders that contain proscriptions distinct from
those at issue in this appeal and circumstances unlike those presented herein.

[J-29-2020] - 22

23a

or counsel from publicly speaking or expressing an opinion about the Judge, including
disclosing the entry of this

enumerated posted information has

been removed and as long as

is not disclosed by the communication. Id.

at 2.
A careful review of this language reveals that, c

assertions,

the gag order in no way silences them from expressing all of their views on important
issues relating to the custody proceeding.

Indeed, while the gag order precludes

Appellants from speaking publicly about

, the order

affords Appellants ample opportunity to disseminate all of their thoughts into the
marketplace of ideas without restriction on the content of their message. The gag order
further allows Appellants to voice all of their opinions regarding issues important to them,
including parental alienation, child sexual abuse, and placement of children in the custody
of sexually abusive parents, and to testify about these issues before governmental bodies
in an effort to remedy these vital societal concerns.
speech lies in the manner of communication, as they are precluded from conveying such
public speech in a way that exposes

s him to harm. Thus, the

order does not deny Appellants the opportunity to be the catalyst for social or political
change.

See Meyer v. Grant, 486 U.S. 414, 421 (1988) (internal citation omitted)

ideas for the bringing about of political an
The gag order also does not discriminate against
actual entry of the gag order itself or speech criticizing the trial
that order. As noted, once Appellants remove from the public domain the enumerated
information found to be harmful to Child, they are free to criticize
assuming they do so

, the gag

[J-29-2020] - 23

24a

order places n
See Mills v. Alabama, 384 U.S. 214,
218 (1966)
First Amendment, there is practically universal agreement that a major purpose of that

Under these circumstances, we hold that the gag order is content neutral, as the
restrictions ther

and

targeted only the method of communication for the exclusive purpose of protecting the
psychological well-being and privacy of Child. Accordingly, the heightened constitutional
standard of strict scrutiny is inapplicable. Instead, we proceed to apply the intermediate
standard of constitutional scrutiny set forth in United States v.

, supra, as well as

the similar federal precedent applicable to restrictions placed on the time, place, and
manner of speech.
B.
1. Constitutional Power of Government
The first

factor involves a determination of whether the regulation of

speech was promulgated within the constitutional power of government. This factor
requires little discussion and has scant import here as no party contends that, aside from
its effect on free speech rights, protecting the interests of a child subject to a custody
determination is beyond the constitutional power of the judiciary. This first factor, is, thus,
clearly satisfied.
2. Furtherance of an Important or Substantial Governmental Interest
The second

factor requires that the speech restriction further an important

or substantial governmental interest. In this appeal, determining the degree of importance
of the governmental interest asserted requires the

[J-29-2020] - 24

25a

emotional well-being and privacy. We observe that strikingly absent from
fervent efforts to safeguard their fundamental right to free speech is any acknowledgment
that the cost of exercising that right is the curtailment of

s right to freedom from

lasting psychological and emotional trauma in derogation of his overall best interests.
For the reasons set forth infra, we find that the trial court correctly concluded that
the justifications for the speech restrictions contained in the gag order are, without
question, important and substantial, and that

psychological and emotional

well-being and

free speech. See Seattle

Times v. Rhinehart, 467 U.S. 20, 32 n.18 (1984) (providing that while litigants do not
surrender their First Amendment rights at the door of the courthouse, those rights may be
subordinated to other rights or interests that arise during trial).
As a general matter, it is well-settled that protecting a minor from psychological
and physical harm serves an important governmental interest, in fact, in many
circumstances, a compelling state interest. See Sable Communications of Cal, 492 U.S.

physical and psychological well-

D.P. v. G.J.P., 146 A.3d 204, 211 (Pa.
parens patriae

power, has a compelling interest in safeguarding children from various kinds of physical
and emotion harm and promoting their well[-

Hiller v. Faust, 904 A.2d 875, 886

longstanding interest in protecting the health and emotional welfare of child
This sentiment was expressed in our decision in Shepp v. Shepp, supra, which
involved the constitutionality of a custody order prohibiting a father of Mormon faith from
teaching his minor daughter about polygamy, which is a crime in Pennsylvania. Although

[J-29-2020] - 25

26a

not styled as a free speech claim, the case involved the tension arising between the First

policy set forth in 23 Pa.C.S. § 5301 (repealed), to assure a reasonable and continuing
contact of the child with both parents after a separation or dissolution of the marriage and
a sharing of the rights and responsibilities of child-rearing by both parents when in the
best interests of the child.
Upon a review of jurisprudence relevant to a claim of free exercise of religion, this
Court in Shepp held that a court may prohibit a parent from advocating religious beliefs,
which, if acted upon, would constitute a crime,
ardize the physical or mental health or safety of the child, or have a potential
for significant social burdens.

Shepp, 906 A.2d at 1174.

compelling interest to protect a child in any given case, however, is not triggered unless
Id.
at 1173.
In fact, Appellants concede that this Court observed in Shepp that the

. See Brief for Appellant at 19. They contend,
however, that there was no demonstration of harm to Child resulting from their speech,
and posit that the trial court
order which are devoid of any legal significance.

Id. at 18. Respectfully, we disagree

completely, as the tri
were articulate, specific, and supported by the record.
In this most unusual custody case, where the hearing spanned over twenty-three
days and the parties presented twenty-four witnesses and nearly two hundred exhibits, a
review of the finding of harm should be considered in the context of the custody

[J-29-2020] - 26

27a

proceeding in its entirety. Upon hearing all the evidence and evaluating the credibility of
every witness, the trial court concluded that the allegations that Child was sexually

from Father and his extended family that caused Child substantial harm, and not the
actions of Father.14
The
conference, which contained a link to pleadings from the custody case, a transcript of

words, detailed allegations of sexual abuse by Father, which the trial court had found did

identity was disclosed, thereby allowing those in the community to ascertain easily the
identity of Child. A few weeks later, although not identifying Child, a local paper quoted

press conference.
The sensitive nature of the information disclosed during Appel
conference is troubling as it reveals

mistakenly thought may

have occurred in terms of sexual abuse by Father. The online public posting allowing the
is most intimate thoughts
and fears of parental sexual abuse would undoubtedly leave an indelible mark on an

14

As noted, in the prior proceeding the Superior Court affirmed the order granting custody

alienated Child from Father, and that Father did not sexually abuse Child. This Court
subsequently denied allocatur. Thus, we summarily reject Appellants
challenge in this appeal the finding that Father did not sexually abuse Child.

[J-29-2020] - 27

28a

innocent twelve-year-old boy, as will the entire protracted and contentious custody
battle.15
The trial court made specific factual findings, exp
take the custody case to the media was particularly harmful to Child and not in his best
interests because when parents, students and teachers

small private school

read the graphic account, it will subject Child

Amendment rights
vengeful speech can cause a young child caught in the middle of a high-conflict custody
Id.
As these facts demonstrate, it would be inappropriate for this Court to conclude
al court in a custody proceeding
powerless to safeguard a child from threatened psychological harm stemming from the
manner by which a parent delivers his or her speech. Otherwise, an innocent child in a
custody proceeding could be become a public spectacle during the very judicial process
The First Amendment does not
require such a result.
Accordingly, to balance the important interests at stake, we hold that a restriction
on the manner of parental speech in a custody case furthers an important governmental
interest where there is a substantial likelihood that the restrained speech has harmed or
will imminently harm the child. Finding that such justification has been satisfied here, we
conclude that the second

factor has been clearly established.

3. Governmental Interest Unrelated to Suppression of Free Expression
15

The record establishes that Child was born in 2006 and the online press conference
was conducted in 2018. Thus, Child would have been about twelve years of age at the
time.

[J-29-2020] - 28

29a

We have already concluded that the justification of the gag order, to protect the
psychological well-being and privacy of Child, is unrelated to the suppression of the
content of Appellants expression, thereby satisfying the third prong of the
standard.
4. Incidental Restriction is No Greater Than Essential
In legal parlance, this fourth prong of the

test (i.e., that the incidental

restriction on speech is no greater than is essential to the furtherance of that interest) is
identified more readily by the nomenclature employed in jurisprudence discussing time,
place, and manner restrictions, i.e., requiring the restriction on speech to be narrowly
tailored to serve the articulated governmental interest.

Ward, 491 U.S. at 798.16

Appellants contend that the gag order is not narrowly tailored, but contains overly broad
terms that prohibit all speech on the topic of the Child custody proceeding.

have concluded that it is unsupported by the text and articulated purpose of the gag order.
As discussed extensively throughout, although the gag order contains the restriction
directing Appellants not to speak publicly about

when read in context the order

affords Appellants ample opportunity to disseminate their thoughts into the marketplace
of ideas without restriction on the content of their message, to voice their opinions
regarding issues important to them, including the societal concerns involved in this
custody case and the propriety of the

nd to testify about these

concerns before governmental bodies, as long as Appellants do so in a manner that
protects

16

.

As noted, the High Court has clarified that while a regulation of the time, place, or

legitimate, content-neutral
Id.

[J-29-2020] - 29

30a

Appellants, however, offer an additional ground upon which to base a finding that
the language of the order is too broad.

They emphasize that the order prohibits

about topics such as parental alienation or sexual abuse. While at first blush it may seem
severe to preclude Mother from stating her name when publicly speaking about societal
issues that arose in the case, the simple fact remains that public release of the identity of
Mother discloses the identity of Child, undermining the essence of what the trial court was
seeking to accomplish; protection of Child

-being and his

privacy.
As further evidence that the gag order was narrowly crafted, we observe that the
order applied only to Mother and her counsel. The trial court did not seal the record of
the custody trial nor impose any prior restraints upon the press that precluded the
dissemination of information relating to the custody trial. The United States Supreme
Court has observed that limiting the speech of trial participants is a less restrictive
alternative than imposing a prior restraint on the press itself. See e.g. Sheppard v.
Maxwell, 384 U.S. 333, 361 (1966) (outlining less restrictive measures than imposing prior
restraints on the press, including the proscription of extrajudicial statements by the
parties, their counsel, witnesses, and court officials);

427 U.S. at

564 (same).
Rather, the trial court took the precise action that would prevent Mother and her
counsel from taking their case to the media - restricting their public speech about the
custody proceeding that would identify and harm Child. As discussed at length herein,
the trial court went to great lengths to narrow such restriction by leaving open ample
alternatives for communication of the information Appellants wanted to express,
restricting only the manner by which that speech could be conveyed, i.e., refraining from

[J-29-2020] - 30

31a

identifying Child while disseminating their message. Accordingly, we conclude that the
speech restrictions contained in the gag order were narrowly tailored to further the
important government interest of protecting Child.
C. Vagueness Challenge
is vague because the
restrictions on speech contained therein are unclear, rendering it difficult to ascertain what
conduct is prohibited. First, Appellants challenge language in the order precluding them
Child.
Second, they posit that the language

third parties

to speak or communicate publicly about the case is vague, as it is capable of multiple
interpretations. Finally, Appellants maintain that the duration of the gag order is unclear
as it sets forth no expiration date.
An unconstitutionally vague law is one that fails to give a person of ordinary
intelligence fair notice that his or her contemplated conduct is forbidden by law.
Papachristou v. City of Jacksonville, 405 U.S. 156, 162 (1972). Restraints on speech

Minn. Voters Alliance v. Mansky, 138 S.Ct. 1876, 1888 (2018). So long as the

Broadrick v. Okla., 413 U.S. 601, 607 (1973) (citation omitted). While it is inevitable that
words contain

arise over the meaning of

particular terms, a law shall not be invalidated on vagueness grounds if its terms are set

sufficiently understand and comply with, without sacrifice to the public interest.
608.

[J-29-2020] - 31

Id. at

32a

Applying this jurisprudence to the language of the gag order, we conclude that the
language is not unconstitutionally vague as it clearly informs Appellants that they may not
speak publicly about the custody matter in a manner that will disclose
assertions to the contrary are unpersuasive. First, we decline to
as used in the language of the gag
order precluding Appellants from speaking publicly about the custody case in a manner
As noted throughout, the trial court made clear that it
was precluding only speech about the custody case communicated in manner that would
identify Child.
direct[ing] or encourage[ing]
communicate or speak publicly about the case is clear when read in the context of other
language in the order directing Appellants to remove the extensive information already
posted online, which Appellants had encouraged others to view. Finally, while the gag
order admittedly does not include a duration for the speech restrictions, it is undeniable
that the trial court imposed the order to protect a
would continue only

s; thus, such preclusion
advise trial courts, however, to utilize

precise terms of duration when drafting orders imposing restrictions on the manner of
speech under circumstances where the duration of the prohibition is unclear, as such an
omission could form the basis for a successful vagueness challenge.
Accordingly, we agree with the Superior Court

that a person of

ordinary intelligence would read the gag order to forbid Appellants from taking this
peculiar custody case to the media in a way that would harm the psychological and
emotional well-being of Child. Thus, we de
vagueness challenge.
D. Article I, Section 7 of the Pennsylvania Constitution

[J-29-2020] - 32

ir

33a

Because we need to effectuate fully the protections contained in the state charter,
we proceed to examine Appellants claim that, even assuming that the gag order satisfies
the requisites of the federal constitution, it violates Article I, Section 7 of the Pennsylvania
Constitution. See Commonwealth v. Edmunds, 586 A.2d 887, 894 (Pa. 1991) (holding
decisions of the United States Supreme Court which

We acknowledge that Article I, Section 7 is an ancestor and not a stepchild of the
First Amendment, and that the protections that it guarantees are firmly rooted in
Pennsylvania history and experience. Commonwealth v. Tate, 432 A.2d 1382, 1388 (Pa.
1981). We additionally observe that in certain circumstances this Court has afforded
greater protection under Article I, Section 7, than guaranteed by its federal counterpart.
See

, supra (holding that a public decency ordinance that made it a summary

offense to appear nude in public violates the freedom of expression provision of Article I,
Section 7 of the Pennsylvania Constitution, notwithstanding that the ordinance does not
violate the First Amendment).
However, Appellants have offered no meaningful argument or authority, and this
Court has found none, suggesting that Article I, Section 7 requires the application of a
heightened constitutional standard to a contentspeech rights, as exercised during a custody proceeding where the trial court has made
a specific finding that the speech harms the

psychological and emotional

well-being and privacy. As Appellants have failed to persuade us to the contrary, we
conclude that the protections afforded by the First Amendment and Article I, Section 7
are coextensive as it relates to the particular circumstances presented by this appeal.
Accordingly, for the reasons set forth in our discussion of the First Amendment in
which we

content-neutral restrictions pursuant to the

[J-29-2020] - 33

34a

intermediate constitutional standard and balanced the competing interests of Appellants
and Child, we respectfully find no merit to

contention under our state charter.

E. Conclusion
In summary, we

s that the gag order issued in the

custody proceeding constitutes a content-based speech restriction or a prior restraint on
the content of their speech. Instead, we hold that the gag order restricts only the manner
of

speech and not the content. Because the speech restrictions are justified

by the important governmental interest of protecting the psychological and emotional wellbeing of Child and the Ch

narrowly tailored to serve that articulated

governmental interest, they do not violate the First Amendment to the United States
Constitution. We further conclude that the gag order is not unconstitutionally vague.
Finally, we hold that the gag order does not violate Article I, Section 7 of the Pennsylvania
Constitution. Thus, we affirm the judgment of the Superior Court, which upheld the
constitutionality of the gag order.
Chief Justice Saylor and Justices Todd, Dougherty and Mundy join the opinion.
Chief Justice Saylor files a concurring opinion in which Justice Dougherty joins.
Justice Wecht files a dissenting opinion in which Justice Donohue joins.

[J-29-2020] - 34

35a

[J-29-2020] [MO: Baer, J.]
IN THE SUPREME COURT OF PENNSYLVANIA
WESTERN DISTRICT

S.B.
v.
S.S.
APPEAL OF: S.S., RICHARD DUCOTE,
ESQUIRE, AND VICTORIA MCINTYRE,
ESQUIRE

:
:
:
:
:
:
:
:
:
:
:
:

No. 39 WAP 2019
Appeal from the Order of the
Superior Court entered December
24, 2018 at No. 753 WDA 2018,
affirming the Order of the Court of
Common Pleas of Allegheny County
entered April 27, 2018 at No. FD-15008183-10.
ARGUED: May 27, 2020

DISSENTING OPINION

JUSTICE WECHT

DECIDED: DECEMBER 22, 2020

The Majority discerns no constitutional infirmity in a gag order that bars a parent
and her attorneys in a contentious and ongoing
communic

that case.1 The order

does not stop

there; it even purports to prohibit the parent and her lawyers from direct[ing] or
encourag[ing] third parties to speak about the case.2 The gag order allows only two
limited exceptions: (1) testifying before either the Pennsylvania General Assembly or the
United States Congress; and (2) expressing an opinion about the [trial] Judge.
in those two circumscribed contexts, while the parent

1
2

Id.

3

Id. at 5.

3

Even

and her counsel may

36a

speak, they may not identify Mother by name, nor disclose any information that would
child.4 The gag order is without any time limit whatsoever; it

identify

applies in perpetuity. No doubt, there are countries in our world where overbroad prior
restraints on speech of this sort pass muster. But not here. Or so I thought, until today.
cout. There are appealing reasons why a
judge might seek

speech and that of her attorneys. These reasons arise

from the extraordinary and potentially psychologically injurious pattern of public conduct
in which Mother and

have engaged. But if one thing ought to

be clear from American legal history, it is that we should not allow hard cases to make
bad law. Certainly, most of our constitutional protections have been forged in unseemly
crucibles.5 In bestowing its constitutional imprimatur on a gag order so broad, the Majority
risks erosion of core First Amendment protections.
doubt the sincerity and
good intentions that underlie the efforts by the lower courts and by
aim to protect the child
Mother

Majority which

from harmful consequences that could ensue from the

and that of her Counsel. This is an unusual case. The testimony of a

child in a custody dispute is rarely the subject of a press conference. Far more frequently,
a child is harmed when a parent criticizes the other parent to the child or shares details
But regardless of the source of the
4

Id.

5

Messrs. Miranda, Escobedo, and Gideon, for example, were hardly model citizens.
See Miranda v. Arizona, 384 U.S. 436 (1966) (holding that statements will be inadmissible
as a violation of the Fifth Amendment when obtained in a police interrogation without the
suspect receiving warning of his or her rights); Escobedo v. State of Ill., 378 U.S. 478
(1964) (holding that when a suspect is interrogated with the goal of eliciting incriminating
statements and the suspect has not been warned about his or her right to remain silent,
Sixth Amendment); Gideon v. Wainwright, 372 U.S. 335 (1963) (holding that an indigent
defendant in a state criminal prosecution has a right to court-appointed counsel).
[J-29-2020] [MO: Baer, J.] - 2

37a

harmful speech, and good intentions notwithstanding, American courts may not enter
unconstitutionally overbroad, content-based gag orders at will.
The order that we examine today reads as follows:
GRANTED in part. It is hereby
ORDERED that [Mother]; Richard Ducote, Esquire; and Victoria McIntyre,
Esquire shall NOT speak publicly or communicate about this case including,
but not limited to, print and broadcast media, on-line or web-based
communications, or inviting the public to view existing on-line or web-based
publications. The following is also ORDERED.
1. [Mother]; Richard Ducote, Esquire; and Victoria McIntyre shall
NOT direct or encourage third parties to speak publicly or
communicate about this case including, but not limited to, print
and broadcast media, on-line or web-based communications, or
inviting the public to view existing on-line or web-based
publications.
2. [Mother]; Richard Ducote, Esquire, and Victoria McIntyre may
provide public testimony in the State House and/or Senate in the
United States Congress and Senate about parental alienation,
sexual abuse of children in general or as it relates to this case.
However, in providing such testimony, they shall NOT disclose
any information that would identify or tend to identify the Child.
[Mother] shall NOT publically state her name, the name of the
Attorney Ducote and Attorney McIntyre
shall NOT publically refer to [Mother], the Child, or [Father] by
name or in any manner that would tend to identify the
aforementioned parties.
3. [Mother] and Counsel shall remove information about this case,
which has been publically posted by [Mother] or Counsel,
including but not limited to, the press release, the press
conference on the YouTube site, the Drop Box and its contents,
and other online information accessible to the public, within
twenty-four (24) hours. [Mother] and Counsel shall download
or place the aforementioned information onto a thumb drive,
which shall be filed with this court.
The Oral Motion to Stay This Order of Court, made on behalf of
[MOTHER] is DENIED[.]
This Order does not prohibit any party or counsel from publicly
speaking or expressing an opinion about the Judge, including disclosing the
entry of this Order of Court, after the information has been removed as set
forth, above. However, such expression shall NOT contain the name of the
Child or other information, which would tend to identify the Child.
[J-29-2020] [MO: Baer, J.] - 3

38a

T.C.O. at 4-5 (emphasis in the original).
The Majority maintains that this gag order

[Mother or Counsel]

from expressing all of their views on important issues relating to the custody proceeding.

6

The Majority further claims that, when read in context, the order affords Appellants ample
opportunity to disseminate all of their thoughts into the marketplace of ideas without
7

I disagree. The order expressly prohibits Mother and Counsel from speaking
publicly or communicating about the case. The order even provides some examples of
the prohibited communication methods, and then proceeds to stress that the prohibition
is not limited to those methods. The order prohibits Mother and Counsel from using a
third party to communicate about the case, and requires Mother and Counsel affirmatively
to remove information posted about the case. As noted, the order provides two limited
exceptions to its sweeping prohibitions. Provided that Child is not identified and Mother
is not named, Mother and Counsel may testify before a legislative body and may express
an opinion about the Judge. Far from affording Mother and Counsel ample opportunity
to disseminate all their thoughts into the marketplace of ideas without restriction on the
8

this gag order in fact closes that marketplace, barricades all

but two narrow avenues of expression, and imposes substantial roadblocks even upon
those outlets.
The question before us is not whether

wise

or appropriate. It was neither. Holding a press conference that highlights sensitive
information about Child certainly casts into doubt any claim that Mother acted
6

Maj. Op. at 22.

7

Id. at 23.

8

Id.

[J-29-2020] [MO: Baer, J.] - 4

39a

best interests.

no doubt was a legitimate consideration as the trial court

wei

custody of Child.

understand that the question before us

whether

But the Majority fails to
infringed

is a separate issue. At this late date, it should no longer need to be said that First
Amendment cases rarely involve speech that is pleasant, agreeable, or temperate.9
In the absence of relevant precedent from this Court, we might seek wisdom from
other jurisdictions that have confronted similar issues. In the context of a juvenile court
case, the Nebraska Court of Appeals examined a gag order that precluded the parents

diagnoses.10 The court determined that the gag order was a prior restraint
speech and was directed at the content of that speech.11 As such, the order was subject
12

The court agreed with the juvenile court that disclosure of the
ot

difficulty is that the

s best interests are not the standa

s. B

the fundamental
s

rationale for the entry of the gag order comport with the established law allowing the lawful

9

See, e.g., Cohen v. California, 403 U.S. 15 (1971)

courthouse); Brandenburg v. Ohio, 395 U.S. 444 (1969) (reviewing the conviction of a Ku
Klux Klan member who, at a rally, suggested that action against the government may be
required); Whitney v. California, 274 U.S. 357 (1927)
conviction for assisting in the organization of the California branch of the Communist Party
and reading a resolution calling for
Commonwealth v. Knox, 190
A.3d 1146 (Pa. 2018) (determining whether a rap video containing threatening lyrics was
protected speech).
10

In re T.T., 779 N.W.2d 602 (Neb. Ct. App. 2009).

11

Id. at 612, 614.

12

Id.

[J-29-2020] [MO: Baer, J.] - 5

40a

entry of a judicial order imposing a prior restraint on speech.

13

Having found no imminent

harm to the child sufficient to justify a prior restraint, the court vacated the gag order.14
In re R.J.M.B., 133 So. 3d 335 (Miss. 2013), involved a mother who was
misunderstood by an interpreter at the hospital when she gave birth to the child. As a
result of the linguistic
for a year. When the mother and the child were reunited, the trial court entered a gag
order that did not permit any of the parties to speak to the press about the case. On
appeal, the Mississippi Supreme Court first noted that gag orders which restrict parties or
others from publicly discussing a

that
15

The Mississippi Supreme Court recognized a split in the standard used by courts
to measure

gag order directed at attorneys or

litigants. While strict scrutiny has applied to restraints against the press, some courts
have applied a different test when the restraint is against attorneys or parties.

For

example, the United States Courts of Appeals for the Sixth, Seventh, and Ninth Circuits
have applied strict scrutiny, requiring that the gagged speech
present danger or a serious and imminent threat to

16

The

Fourth, Fifth, and Tenth Circuits have applied a less exacting standard, such that

13

Id. at 620.

14

Id. at 621.

15

Id. at 343.

16

Id. at 344.

[J-29-2020] [MO: Baer, J.] - 6

41a

17

The Mississippi Supreme Court concluded that applying the less stringent standard
would impermissibly burden t
present-

, and that the stricter

-and-

applied instead.18 The court noted that several other state courts

had applied the higher standard to gag orders in cases involving children.19,20 The lower
court had not applied any such balancing test, and the Mississippi Supreme Court
concluded that there was no imminent danger to any compelling state interest sufficient
to justify the gag order.21
In Johanson v. Eighth Judicial District,22 the father had filed a motion to modify a
child support order, which the lower court had granted. Shortly thereafter, the father filed

17

Id. The Mississippi Supreme Court reviewed Gentile v. State Bar of Nevada, 501
U.S. 1030 (1991), in which the Supreme Court of the United States held that a
Gentile involved an attorney who faced
disciplinary charges after he spoke at a press conference about a criminal trial. The court
noted that the Fifth Circuit had adopted this reasoning and test in allowing a gag order
aimed at ensuring a fair trial. The Mississippi Supreme Court, however, rejected the
Gentile, the
governmental interest in ensuring a fair trial was not at stake in In re R.J.M.B., which was
not before a jury.

18

Id. at 345.

19

Id. (citing In re T.T.; State ex rel L.M., 3 P.3d 1188, 1193-96 (Utah Ct. App. 2001);
In re J.S., 640 N.E.2d 1379, 1382 (Ill. Ct. App. 1994)).

20

See also Baskin v. Hale, 787 S.E.2d 785, 792 (Ga. Ct. App. 2016) (applying an
ndard and vacating an injunction that prevented the parents and
their attorneys from putting information about a custody case on any social media,
website, or public medium).

21

Id. at 346.

22

182 P.3d 94 (Nev. 2008).

[J-29-2020] [MO: Baer, J.] - 7

42a

a motion to correct some clerical errors in the order because the father was concerned
that the order could be used against him in his campaign for a judgeship. Sua sponte,
the lower court entered a gag order that precluded the parties and their attorneys from
disclosing any document or discussing the case with any other party or individual.23 The
mother challenged the order. The Nevada Supreme Court recognized that gag orders
nts about their own case
amount[] to a prior restraint on speech and undermine[]

24

The

, which requires a clear and present danger or
serious and imminent threat to a protected interest, a narrowly drawn order, and the lack
of available less restrictive alternatives. The court concluded that the lower court had
failed to consider whether there was any clear and present danger to a protected interest
and had made no findings related to the least restrictive alternative. The court also held
that the order was overbroad and was not narrowly tailored.25 The court also noted that
the gag order did not have an expiration date. Because the constitutional standard had
26

Like the courts of our sister states, Pennsylvania courts generally have applied
stringent scrutiny in reviewing the lawfulness of prior restraints on speech. Because of
the presumption that prior restraints are unconstitutional, the reviewing court must
23

Id. at 96.

24

Id. at 98.

25

See id.

26

The constitutionality of restraining parental speech in custody cases continues to
be litigated around the country. See, e.g., Delgado v. Miller, __ So.3d ____, 2020 WL
7050217 (Fla. Dist. Ct. App. Dec. 2, 2020) (holding that a provision of a custody order
health or personal behavior on social media was a prior restraint that had not been found
to be necessary, was not narrowly tailored, and was overbroad).

[J-29-2020] [MO: Baer, J.] - 8

43a

evaluate the following in determining whether such restraints are permissible: (a) the
nature and extent of the evil to be avoided, (b) whether other measures [are] likely to
mitigate the effects of unrestrained publicity, and (c) how effective a restraining order [is]
to prevent the threatened danger.

27

be a content-neutral restriction

a conclusion with which I disagree

Because it perceives the order in question here to
Majority

avoids this issue entirely.
The United States Court of Appeals for the Fourth Circuit has provided an
instructive discussion of gag orders:
Even among First Amendment claims, gag orders warrant a most rigorous
form of review because they rest at the intersection of two disfavored forms
of expressive limitations: prior restraints and content-based restrictions.
Alexander v.
United States, 509 U.S. 544, 550 (1993), gag orders are prior restraints.
Bantam Books, Inc. v. Sullivan, 372 U.S. 58, 70 (1963). Prior
prefers to punish the few who abuse rights of speech after they break the
Se.
Promotions, Ltd. v. Conrad, 420 U.S. 546, 559 (1975).
Similarly, gag orders are presumptively unconstitutional because they are
content based. Nat'l Inst. of Family and Life Advocates v. Becerra, ___ U.S.
____, 138 S.Ct. 2361, 2371 (2018) (presumption against content-based
restraints). ContentReed v. Town of
Gilbert, 576 U.S. 155, 163 (2015). Gag orders inherently target speech
relating to pending litigation, a topic right at the core of public and
community life.
Ashcroft v. ACLU, 535 U.S. 564, 573, (2002) (internal quotation marks
omitted).
In light of these twin presumptions, gag orders must survive strict scrutiny.
Reed, 576 U.S. at 163 (strict scrutiny for content-based restrictions).

27

Commonwealth v. Genovese, 487 A.2d 364, 367 (Pa. Super. 1985) (citing
Nebraska Press Association v. Stuart, 427 U.S. 539 (1976)).

[J-29-2020] [MO: Baer, J.] - 9

44a

In re Murphy-Brown, LLC, 907 F.3d 788, 796-97 (4th Cir. 2018) (citations modified). The
perpetual gag order at issue in this case is a content-based prior restraint. As such, it
must be measured by strict scrutiny. So measured, it cannot survive.
The United States Supreme Court has defined contentare justified without reference to the content of the regulat

as
28

Thus,

they must be evaluated differently from content-based restrictions, as the latter implicate
the important principle

government may not grant the use of a forum to people

whose views it finds acceptable, but deny use to those wishing to express less favored
or more controversial views.

29

The High Court recently has explained:
Government regulation of speech is content based if a law applies to
particular speech because of the topic discussed or the idea or message
expressed.
requires a court to consider whether a regulation of spe
draws distinctions based on the message a speaker conveys. Some facial
distinctions based on a message are obvious, defining regulated speech by
particular subject matter, and others are more subtle, defining regulated
speech by its function or purpose. Both are distinctions drawn based on the
message a speaker conveys, and, therefore, are subject to strict scrutiny.
Our precedents have also recognized a separate and additional category of
laws that, though facially content neutral, will be considered content-based
regulations of speech: laws that cannot be justified without reference to the
content of the regulated speech, or that were adopted by the government
because of disagreement with the message the speech conveys. Those
laws, like those that are content based on their face, must also satisfy strict
scrutiny.
Reed v. Town of Gilbert, 576 U.S. 155, 163-64 (2015) (cleaned up).

28

City of Renton v. Playtime Theatres, Inc., 475 U.S. 41, 48-49 (1986) (quoting Va.
Pharmacy Bd. v. Virginia Citizens Consumer Council, Inc., 425 U.S. 748, 771 (1976))
(emphasis in original).

29

Id. at 48-49 (quoting Police Dept. of Chicago v. Mosley, 408 U.S. 92, 95-96 (1972)).

[J-29-2020] [MO: Baer, J.] - 10

45a

We have urged a common-sense approach to determining whether a regulation is
content-based or content-

relevant that an obvious purpose
30

of the ordinance was to directly burden freedom of expression itself
noted that,

Similarly, we have

the First Amendment means that government has no

power to restrict expression because of its message, its ideas, its subject matter, or its
content With respect to noncommercial speech, this Court has sustained content-based
restrictions only in the most extraordinary circumstances.

31

In differentiating between

content-based and content-neutral restrictions, this Court has held:
If the governmental purpose in enacting the regulation is unrelated to the
-part standard from O'Brien.[32] But, if the governmental
interest is related to the suppression of expression, then the regulation falls
outside the scope of the O'Brien test and must be justified under a more
demanding standard.
Purple Orchid, Inc. v. Pennsylvania State Police, 813 A.2d 801, 806 (Pa. 2002) (citations
omitted).
Our Superior Court has found an injunction to be content-neutral where
seek to ban any subj

not

sought to restrict the

excessive tactics used by the protesters, not to stifle the message itself.

33

By contrast,

the Superior Court found an injunction to be content-based and unconstitutional where it
prevented speech only critical of the plaintiff and was directed against the ideas
30

s A.M. v. City of Erie, 812 A.2d 591, 611-12 (Pa. 2002).

31

Ins. Adjustment Bureau v. Ins. Co r for Com. of Pa, 542 A.2d 1317, 1320 (Pa.
1988) (quoting Bolger v. Youngs Drug Prods. Corp., 463 U.S. 60, 65 (1983)).

32

, 391 U.S. 367, 377 (1968) (outlining four factors to
consider when determining the constitutionality of a content-neutral speech regulation).

33

SmithKline Beecham Corp. v. Stop Huntingdon Animal Cruelty USA, 959 A.2d 352,
357 (Pa. Super. 2008).

[J-29-2020] [MO: Baer, J.] - 11

46a

expressed because of the detrimental impact which the communication of those ideas
has had upon [the plaintiff].

34

Some of the case law distinguishing content-based restrictions from contentneutral ones has focused upon the perceived hostility to the message.35
Majority focuses upon whether the trial

hostility toward

speech.36 But this does not cover the waterfront; there are also restrictions that are
deemed content-based because any common-sense reading reveals that the restriction
,
37

Our Court has followed this common-

sense approach in determining whether or not a restriction is content-neutral.38
The restriction

case was based upon the content of speech. It was

based upon a particular subject matter. It was based upon the message.39 It was directed
at the ideas expressed.40 The first sentence of the gag order categorically bans Mother
and Counsel from speaking about the custody case; the preclusion extends only to that
topic and that message. This is the very essence of a content-based restriction. To

34

Franklin Chalfont Assocs. v. Kalikow, 573 A.2d 550, 557 (Pa. Super. 1990).

35

See Reed, 576 U.S. at 164 (recognizing content-

36

M
incip[al] inquiry in determining content neutrality, in speech
cases generally and in time, place or manner cases in particular, is whether the
government has adopted a regulation of speech because of disagreement with the
Ward v. Rock Against Racism, 491 U.S. 781, 791 (1989))).

37
38

Reed, 576 U.S. at 163.
, 912 A.2d at 611.

39

See SmithKline Beecham Corp., 959 A.2d at 357.

40

See Franklin Chalfont Assocs., 573 A.2d at 557.

[J-29-2020] [MO: Baer, J.] - 12

47a

survive, it must withstand strict scrutiny. The perceived laudability of
does not change the nature of this restriction.
In addition to the fact that the gag order in this case is a content-based restriction,
it also is a prior restraint on speech.

The term prior restraint is used to describe

administrative and judicial orders forbidding certain communications when issued in
41

disfavored and are subject to heightened scrutiny.

Prior restraints are

Any system of prior restraints of

expression comes to this Court bearing a heavy presumption against its constitutional
validity. The Government thus carries a heavy burden of showing justification for the
imposition of such a restraint.

42

In addition, the gag order before us in this case is similar

to those examined in the courts of our sister states, which have characterized those
orders as prior restraints or something akin to them.43
While prior restraints often are associated with restrictions upon the press, they
arise in other situations, as well.44 Indeed, we have distinguished prior restraints on
speech from limits that may sometimes restrict press or public access to the courts when
those limits are needed to protect constitutional interests such as the right to a fair trial.45
While no doubt a reaction to communications that Mother and Counsel have
already made, the gag order before us precludes Mother and Counsel prospectively from

41

Alexander v. United States, 509 U.S. 544, 550 (1993) (emphasis in original)
(cleaned up).

42

New York Times Co. v. United States, 403 U.S. 713, 714, (1971) (cleaned up).

43

See In re T.T., In re R.J.M.B., In re J.S., Johanson, supra.

44

See William Goldman Theatres, Inc. v. Dana, 173 A.2d 59, 64 (Pa. 1961) (holding
that the Motion Picture Control Act was a prior restraint when the Board of Censors had
to approve movies before screening).

45

See Philadelphia Newspapers, Inc. v. Jerome, 387 A.2d 425, 433 (Pa. 1978).

[J-29-2020] [MO: Baer, J.] - 13

48a

speaking about the custody case in advance of any communication that either of them
might wish to make. The gag order does not simply deny access to case proceedings,
as in closing the courtroom or sealing the trial court record. As a prior restraint, the gag
order is subject to a presumption of constitutional invalidity and a heightened standard of
review.
We have held:
When the government restricts expression due to the content of the
message being conveyed, such restrictions are allowable only if they pass
the strict scrutiny test. That test is an onerous one, and demands that the
government show that the restrictions
Republican Party of Minnesota v. White, 536
U.S. 765, 775 (2002).
In re Condemnation by Urban Redevelopment Auth. of Pittsburgh, 913 A.2d 178, 183-84
(Pa. 2006) (citation modified). Here, the gag order is both content-based and a prior
restraint. Accordingly, the Majority errs in reviewing the order under the

46

factors.

Instead, strict scrutiny must apply. I turn to analyze the order at issue against that
exacting standard.
This Court has recognized that the protection of the health and well-being of
children is a compelling state interest.47 I do not for a minute doubt the considerable harm
that Child may face
Consequently, I agree that there is a compelling state interest at issue here.

46

Brien, 391 U.S. 367, 377 (1968) (outlining four factors to
consider when determining the constitutionality of a content-neutral speech regulation).

47

See D.P. v. G.J.P., 146 A.3d 204, 211 (Pa. 2016)
he state, acting pursuant to
its parens patriae power, has a compelling interest in safeguarding children from various
kinds of physical and emotional harm and promoting their wellbeing Hiller v. Fausey,
904 A.2d 875, 886 (Pa. 2006) (finding protection of children to be a compelling state
interest f
children).

[J-29-2020] [MO: Baer, J.] - 14

49a

This does not end the inquiry. To survive strict scrutiny, the order also must be
narrowly tailored. The Majority believes that this order provides ample opportunity for
Mother and Counsel to express their views. I disagree. In its first sentence, the order
categorically prevents Mother and Counsel from speaking or communicating about the
case publicly. There are only two limited and very specific exceptions for Mother and
Counsel to express their views, and Mother is precluded in all circumstances from doing
so in her own name, ostensibly because this might tend to identify Child. This sweeping
gag order all but precludes Mother from speaking about this case to anyone other than
Counsel. Moreover, the order is not limited in time. As in Johanson, the restriction is
essentially endless and it is anything but narrowly tailored.
That I find the order here to be impermissible is not to suggest that I consider trial
courts powerless to attach consequences to speech of a potentially injurious nature. Our
General Assembly has provided trial courts with a list of factors to consider in making
custody decisions.48
statements under several of those factors in determining what custody arrangement
would serve
C

st interests.49

s certainly is a legitimate consideration in determining custody, and

may appropriately be invoked

48

derogation of

ial rights. But imposing tangible

See 23 Pa.C.S. § 5328(a) (listing sixteen factors).

49

The
attempts of a parent to turn the child against the other parent
( Which party is
more likely to maintain a loving, stable, consistent and nurturing relationship with the child
Which party is more likely to attend
to the daily physical, emotional, developmental, educational and special needs of the
The level of conflict between the parties and the willingness and ability
of the partie
(
23 Pa.C.S. § 5328 (a).

[J-29-2020] [MO: Baer, J.] - 15

50a

consequences upon the hours and circumstances of child custody is one thing; infringing
upon, and gagging, constitutional rights of speech by prior restraint is quite another.50
I disagree as well with the Majority generous conclusion that the gag order before
us is not vague.

The order here is both overbroad and vague.

As they relate to

government edicts, the doctrines of overbreadth and vagueness are as applicable to the
type of order in this case as they are to statutes, regulations, or rules.
Arising from the
s Due Process Clause, the voidfor-vagueness doctrine requires that a statute or rule under attack be
sufficiently definite so that people of ordinary intelligence can understand
what conduct is prohibited, and so as not to create or encourage arbitrary
or discriminatory enforcement. Hill v. Colorado, 530 U.S. 703, 732 (2000).
When a statute is purportedly vague and arguably involves constitutionally
protected conduct, vagueness analysis will necessarily intertwine with
overbreadth analysis. See Hoffman Estates v. Flipside, Hoffman Estates,
Inc., 455 U.S. 489, 494 n. 6 (1982).
A form of First Amendment challenge, the overbreadth doctrine prohibits an
enactment, even if clearly and precisely written, from including
constitutionally protected conduct within its proscriptive reach. Grayned v.
City of Rockford, 408 U.S. 104, 114 (1972). In order to prevail on an
overbreadth
overbreadth of a statute must not only be real,
but substantial as well, judged in relation to
s plainly legitimate
Broadrick v. Oklahoma, 413 U.S. 601, 615, (1973). See also
Commonwealth v. Davidson, 860 A.2d 575, 583 (Pa. Super. 2004)
the overbreadth of the statute is substantial, judged in relation to its
legitimate sweep, it may not be enforced against anyone until it is narrowed
Commonwealth v. Perreault, 930 A.2d 553, 559 n.1 (Pa. Super. 2007) (citations
modified).

50

As the Nebraska court noted in T.T.
standard for determining whether a gag order unconstitutionally restricts speech. See In
re T.T., 779 N.W.2d at 620.

[J-29-2020] [MO: Baer, J.] - 16

51a

Overbreadth manifests when a substantial amount of constitutionally protected
activity is swept up along with prohibitions barring unprotected activity.51 When the
restriction seeks to preclude only speech and not conduct, careful attention must be paid
to the scope of the restriction so that protected speech is not chilled.52
Without a doubt, Mother and Counsel engage in otherwise protected activity when
they speak about this case pending in our courts. As they say, this is America. The trial
court could only prohibit as much speech as necessary to protect a compelling state
interest, and no more. Instead, the trial court entered a sweeping order that prohibited
Mother and Counsel from speaking publicly about the case except in starkly limited form
and in two narrow contexts. Even in those two contexts, Mother could not identify herself.
That is, she could not speak her own name. That latter restriction is breathtaking. If that
is not an overly broad restriction, nothing is.
Turning to vagueness, the Majority brushes this argument aside, sculpting and
applying this creative and paternalistic gloss:

person of ordinary intelligence would read

the gag order to forbid Appellants from taking this peculiar custody case to the media in
a way that would harm the psychological and emotional well-

53

If only the

order was so limited.
The Majority chooses to interpret the phrase that Mother and Counsel shall not
speak publicly

about the case as precluding them from speaking to the

media. But that is by no means the only, or even the most intuitive, reading of the trial

51

Commonwealth v. Davidson, 938 A.2d 198, 208 (Pa. 2007).

52

See Broadrick
Court that the possible harm to society in permitting some unprotected speech to go
unpunished is outweighed by the possibility that protected speech of others may be

53

Maj. Op. at 32.

[J-29-2020] [MO: Baer, J.] - 17

52a

prohibition. Certainly, speaking to the media would be speaking publicly about the
case. But

speaking to anyone not connected to the case,

including friends or family members. It could also reasonably be read to bar speaking
about the case in any public setting. At a minimum, it certainly leaves Mother to wonder
to whom she can speak, upon pain of contempt. May Mother speak to the parents of one
s school friends who ask about the custody case? May
about the outcome of the custody trial in order to anticipate or explain
involvement in the school? May she talk to a friend about the case if she suspects that
the friend may share details with others? The fact that it is woefully unclear to whom
Mother can or cannot speak about the case demonstrates that the order here is vague.
If, as the Majority now maintains, the trial court intended only to preclude Mother from
speaking to the press, then the trial court could (and presumably would) have said that.
No, the trial court aimed higher and further: it completely precluded Mother from speaking
publicly

The order is patently

unconstitutional.54

54

The Majority simply dismisses this constitutional inquiry out of hand, avoiding the
cases cited above on the rationale that the gag order at issue here i
This
ing of the gag order and
my own: I am reading the order that the trial court issued; the Majority is reading the order
that it imagines the trial court desired. The Majority chooses to believe
Id. at 23. I do not know
ed
, the Concurrence recognizes
restricting more than the Majority concedes. Conc. Op. at 1. T
charitable
view of the order is unsupported by the language of the order itself. We need only read
the text of the order itelf
which precludes (with two minor exceptions) speak[ing]
e
to discern that the order is overbroad,
vague, and a prior restraint.

[J-29-2020] [MO: Baer, J.] - 18

53a

The Majority acknowledges that Mother and Counsel claimed a violation of Article
1, Section 7 of the Pennsylvania Constitution as well as the First Amendment. The
Majority nonetheless rejects that claim because it concludes that Mother and Counsel
his Court has found none,
suggesting that Article 1, Section 7 requires the application of a heightened constitutional
55

standard to a content-

On this point,

too, I disagree.
preserves the right to free speech as follows:
The printing press shall be free to every person who may undertake to
examine the proceedings of the Legislature or any branch of government,
and no law shall ever be made to restrain the right thereof. The free
communication of thoughts and opinions is one of the invaluable rights of
man, and every citizen may freely speak, write and print on any subject,
being responsible for the abuse of that liberty. No conviction shall be had
in any prosecution for the publication of papers relating to the official
conduct of officers or men in public capacity, or to any other matter proper
for public investigation or information, where the fact that such publication
was not maliciously or negligently made shall be established to the
satisfaction of the jury; and in all indictments for libels the jury shall have the
right to determine the law and the facts, under the direction of the court, as
in other cases.
PA. CONST. art. I, § 7.
Reviewing the history of this provision, our Court has stated:
Apart from the Fourteenth Amendment, the guarantee of free
communication of thought and opinion is independently protected by our
State Constitution of 1874. Article I, Section 7, P.S., thereof recognizes and
the invaluable rights of man, and every citizen may freely speak, write and
print on any subject, being responsible for the abuse of that liberty
([e]mphasis supplied). This provision is a direct inhibition on previous
restraint of an exercise of the protected rights and was derived, ipsissimis
verbis, from Section 7 of Article IX of our State Constitution of 1838 where,
in turn, it had been taken from the Constitution of 1790. The members of
the Constitutional Convention of 1790 were undoubtedly fully cognizant of
55

Maj. Op. at 33.

[J-29-2020] [MO: Baer, J.] - 19

54a

the vicissitudes and outright suppressions to which printing had theretofore
been subjected in this very Colony.
William Goldman Theatres, Inc., 173 A.2d at 61 (emphasis in original).
Our Court has recognized that, in certain circumstances, the Pennsylvania
Constitution provides greater protection than the First Amendment. For example, this
Court has found enhanced protection for expressive conduct56 and for commercial
speech.57 In

s A.M. v. City of Erie, 812 A.2d 591 (Pa. 2002), this Court rejected the

use of intermediate scrutiny and the
issue. Instead, we

factors when expressive conduct was at
experience in this case convinces us of the

wisdom of our observations in Insurance Adjustment Bureau of the perils of the
58

characterized

We later

as holding that whenever the government acts to effect such a

complete ban on a certain type of expression, strict scrutiny must be applied regardless
s action was content-

59

It does not appear that our Court has addressed the question of whether
Constitution provides greater protection than the United States
Constitution in the particular context before us today. Given the extension of protection
and heightened scrutiny that this Court has invoked in past decisions, it appears likely
that our Constitution would require application of strict scrutiny to an order like the one
56

See
s, 812 A.2d at 612; Commonwealth v. Tate, 495 Pa. 158, 432 A.2d 1382,
1391 (1981) (holding that political leafletting on a college campus was protected
expression under Article 1, Section 7).

57

See Commonwealth, Bureau of
l & Occupational Affairs v. State Bd. of
Physical Therapy, 728 A.2d 340, 343 44 (Pa. 1999) (holding that advertising is entitled
to greater protection if it is not misleading); Ins. Adjustment Bureau, 542 A.2d at 1324
(applying a strict scrutiny-type test to restrictions on commercial speech).

58
59

, 812 A.2d at 612.
In re Condemnation by Urban Redev. Auth. of Pittsburgh, 913 A.2d at 189.

[J-29-2020] [MO: Baer, J.] - 20

55a

before us. However, because I would hold that strict scrutiny applies pursuant to the First
Amendment, and because I believe that the instant gag order cannot survive that test, I
do not need to resolve the issue pursuant to the Pennsylvania Constitution. It can await
another day.
that
conclude

mendment rights

render a trial court in a custody proceeding powerless to safeguard a child from
threatened psychological harm stemming from the manner by which a parent delivers his
60

The trial court was far from powerless. It merely erred in its use of that

power. What does seem inappropriate

Court to give short shrift to

First Amendment rights. It is

that is at stake here;

Our decision applies beyond the unusual and troubling facts of this
particular case. T

Majority licenses trial courts to enter vague and overbroad gag

orders in any contentious custody case when a judge feels that
be deemed to cause emotional harm. Protection of children from harm is a worthy goal.
It can be advanced with a scalpel, rather than a broadsword. It can never be advanced
at the expense of our Constitutions and the fundamental rights that they guarantee. The
order before us cannot survive strict scrutiny.61
I would reverse the lower courts, and I would vacate the gag order. I dissent.
60

Maj. Op. at 28.

61

While the particular gag order before us is vague, overbroad, and unduly
expansive, and accordingly cannot survive strict scrutiny, I do not suggest that all such
orders entered in custody cases would meet the same fate. A more narrowly and carefully
tailored order could overcome the heavy constitutional burden that prior restraints carry.
shy
away from protecting a child from potentially harmful speech. Maj. Op. at 28. But it must
do so within the bounds of the First Amendment. Until today, I thought it was well-settled
that our Constitution does not countenance gag orders that are vague, overbroad, and
cannot satisfy strict scrutiny.

[J-29-2020] [MO: Baer, J.] - 21

56a

Justice Donohue joins this dissenting opinion.

[J-29-2020] [MO: Baer, J.] - 22

57a

IN THE SUPREME COURT OF PENNSYLVANIA
WESTERN DISTRICT

S.B.
v.
S.S.
PETITION OF: S.S., RICHARD DUCOTE,
ESQUIRE, AND VICTORIA MCINTYRE,
ESQUIRE

: No. 89 WAL 2019
:
:
: Petition for Allowance of Appeal from
: the Order of the Superior Court
:
:
:
:
:
:
:

ORDER

PER CURIAM
AND NOW, this 11th day of September, 2019, the Petition for Allowance of Appeal
is GRANTED. The issue, rephrased for clarity, is:
In a child custody case, did the Pennsylvania Superior Court err in affirming the

Amendments to the United States Constitution and Article I, § 7 of the
Pennsylvania Constitution when the order precluded the parent and attorneys from
speaking publicly about the case in a manner that would identify the child involved?

58a

59a

60a

61a

62a

63a

64a

65a

66a

67a

68a

69a

70a

71a

72a

73a

74a

75a

76a

77a

78a

79a

80a

81a

82a

83a

84a

85a

86a

87a

88a

89a

90a

91a

92a

93a

94a

95a

96a

97a

98a

99a

100a

101a

102a

103a

104a

105a

106a

107a

108a

109a

110a

111a

112a

113a

114a

115a

116a

117a

118a

119a

120a

121a

122a

123a

124a

125a

126a

127a

128a

129a

130a

131a

132a

133a

134a

135a

136a

137a

138a

139a

140a

141a

142a

143a

144a

145a

146a

147a

148a

149a

150a

151a

152a

153a

154a

155a

